        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Texas State Energy Conservation
Office  Energy Efficiency and
Conservation Block Grant Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-13                        February 2013
                                 Department of Energy
                                    Washington, DC 20585

                                      February 21, 2013


MEMORANDUM FOR THE PROGRAM MANAGER, WEATHERIZATION AND
               INTERGOVERNMENTAL PROGRAM, OFFICE OF ENERGY
               EFFICIENCY AND RENEWABLE ENERGY




FROM:                   Jack Rouch, Director
                        Central Audits Division
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "Texas State Energy
                        Conservation Office − Energy Efficiency and Conservation Block
                        Grant Program Funds Provided by the American Recovery and
                        Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the Texas State Energy
Conservation Office's (Agency) implementation of the American Recovery and Reinvestment
Act of 2009 (Recovery Act) Energy Efficiency and Conservation Block Grant (EECBG)
Program. The Office of Inspector General (OIG) contracted with an independent certified public
accounting firm, Lani Eko & Company, CPAs, PLLC, to express an opinion on the Agency's
compliance with Federal laws, regulations and program guidelines applicable to the EECBG
Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The Agency received a $45.6 million grant award that was to be
expended over a 3-year period from September 14, 2009 to September 13, 2012. The
Department of Energy later extended the award's period of performance to September 13, 2013.

OBSERVATIONS AND CONCLUSIONS

Lani Eko & Company, CPAs, PLLC, expressed the opinion that the Agency complied in all
material respects with the aforementioned requirements and guidelines relative to the EECBG
Program for the period September 14, 2009 through October 31, 2011. There were no findings
and recommendations as a result of this examination.
                                                2


EXAMINATION-LEVEL ATTESTATION

Lani Eko & Company, CPAs, PLLC, conducted its examination in accordance with attestation
standards established by the American Institute of Certified Public Accountants, as well as those
additional standards contained in Government Auditing Standards, issued by the Comptroller
General of the United States. The examination-level procedures included gaining an
understanding of the Agency's policies and procedures and reviewing applicable Program
documentation. The procedures also included an analysis of activity progress, reimbursement
drawdown requests, and compliance with required reporting. Finally, an analysis of associated
expenditure data was conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lani Eko & Company, CPAs,
PLLC, did not comply, in all material respects, with the attestation requirements. Lani Eko &
Company, CPAs, PLLC, is responsible for the attached report dated, January 16, 2013, and the
conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                 Attachment




EXAMINATION REPORT OF
TEXAS COMPTROLLER OF
PUBLIC ACCOUNTS - STATE
ENERGY CONSERVATION
OFFICE

ENERGY EFFICIENCY AND
CONSERVATION BLOCK
GRANT PROGRAM RECOVERY
ACT FUNDS




Lani Eko & Company, CPAs, PLLC
                                                                                                  Attachment (continued)



                                               TABLE OF CONTENTS



INDEPENDENT ACCOUNTANTS’ REPORT .............................................................1


SECTION I DESCRIPTION OF STATE ENERGY CONSERVATION OFFICE
EECBG PROGRAM .........................................................................................................2


SECTION II SUMMARY OF FINDINGS ......................................................................3
                     Attachment (continued)




Page 1 Lani Eko & Associates, CPAs, LLC
                                                                            Attachment (continued)


                SECTION I. Description of State Energy Conservation Office
                 Energy Efficiency and Conservation Block Grant Program


The American Recovery and Reinvestment Act of 2009 (Recovery Act) appropriated $3.2 billion
to the U.S. Department of Energy (Department) to award formula-based and competitive grants
to states, U.S. territories, units of local government, and Indian tribes under the Energy
Efficiency and Conservation Block Grant (EECBG) Program. The EECBG Program was
intended to assist these entities in developing, promoting, implementing, and managing energy
efficiency and conservation projects.

The Department awarded $45,638,100 to the State of Texas' State Energy Conservation Office
(SECO) which was to be expended over a 3-year period from September 14, 2009 to September
13, 2012. The Department later extended the award's period of performance to September 13,
2013. SECO, under the direction of the Texas Comptroller's Office, operates the EECBG
Program. SECO funded four activities under the grant: building energy audits and retrofits,
installation of distributed energy technologies, installation of energy-efficient traffic signals and
street lighting, and installation of renewable energy technologies on government buildings. For
the period from September 14, 2009 through October 31, 2011, SECO reported that it had
awarded $37,876,357 to 964 sub-recipient cities and counties based on a population formula.




                                                   Page 2 Lani Eko & Associates, CPAs, LLC
                                                                         Attachment (continued)


                             SECTION II. Summary of Findings

There were no findings as a result of this examination. SECO officials elected to waive the exit
conference. Because there were no findings in this report, a formal management response was
not required.




                                                 Page 3 Lani Eko & Associates, CPAs, LLC
                                                                 IG Report No. OAS-RA-13-13


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
